                                                                                 OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                  Reporting OIG:
              Month Ending Date: 10/31/2012

                                                                Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau           Recovery Act TAFS      Award Type        US Indicator       Total Obligations    Total Gross          Direct or             Ordering TAFS
No.                                                                                                                      Outlays          Reimbursable
      Department of Transportation -(69-0131 2009 \             Other             Y - US            $16,182,309        $16,000,889
      OIG                           2013) Transportation -
                                    OIG - Recovery Act
  1                                                                                                                                     Direct              n/a
      Department of Transportation -(69-0131 2009 \         Contracts and         Y - US             $329,000            $329,000
      OIG                           2013) Transportation - Orders (including
                                    OIG - Recovery Act      modifications)
  2                                                                                                                                     Direct              n/a
  3
  4
  5
  6
  7
  8

                                                                               Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau             FY 2009 Non-         Total FY 2009     Total FY 2009    FY 2010 Non-Recovery   Total FY 2010      Total FY 2010     FY 2011 Non-Recovery     Total FY 2011     Total FY 2011
No.                                   Recovery Act TAFS       Obligations      Gross Outlays          Act TAFS          Obligations       Gross Outlays           Act TAFS            Obligations      Gross Outlays
    Department of Transportation -   (69-0130 2009)              $1,569,106        $1,569,106 (69-0130 2010)               $5,157,796            $5,157,796 (69-0130 2011)                 $569,541          $569,541
  1 OIG                              Transportation - OIG                                     Transportation - OIG                                          Transportation - OIG
  2
  3
  4
  5
  6
  7
  8


                                                   Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau             FY 2012 Non-         Total FY 2012     Total FY 2012    FY 2013 Non-Recovery   Total FY 2013      Total FY 2013
No.                                   Recovery Act TAFS       Obligations      Gross Outlays          Act TAFS          Obligations       Gross Outlays
    Department of Transportation -   (69-0130 2012)              $2,259,048        $2,248,929
  1 OIG                              Transportation - OIG
  2
  3
  4
  5
  6
  7
  8

                                                                                                                                                                        Monthly Activity Report October Page 1
OIG Recovery Act Monthly Report




                                  Monthly Activity Report October Page 2
                                                                                                OIG Recovery Act Monthly Report


                                                                               Monthly Update Report Data (sheet 2 of 5) Version 5.0a
    Reporting OIG: 0

Month Ending Date: 10/31/2012


                                                                   Fiscal Year 2009                                                                                      Fiscal Year 2010
                                                                                                                                                                                     Monetary Results - Audits, Inspections,
                             Monetary Results -Investigations                Monetary Results - Audits, Inspections, Reviews*           Monetary Results -Investigations
                                                                                                                                                                                                  Reviews*

                                                                                                                                                                                    Questioned Costs (FY
                                Recoveries (FY 09):                                   Questioned Costs (FY 09):                        Recoveries (FY 10):
                                                                                                                                                                                                    10):


                                                                                                                                  Forfeitures/Seizures (FY                         Unsupported Costs (FY
                       Forfeitures/Seizures (FY 09):        $750,000.00          Unsupported Costs (FY 09):
                                                                                                                                                      10):                                          10):


                                                                                                                                                                                   Recommendations for
                                                                            Recommendations for Better Use                          Estimated Savings (FY
                         Estimated Savings (FY 09):                                                                                                                                  Better Use of Funds
                                                                                         of Funds (FY 09):                                           10):
                                                                                                                                                                                                 (FY 10):



                                                                   Fiscal Year 2011                                                                                    Fiscal Year 2012
                                                                                                                                                                                    Monetary Results - Audits, Inspections,
                             Monetary Results -Investigations                Monetary Results - Audits, Inspections, Reviews*           Monetary Results -Investigations
                                                                                                                                                                                                 Reviews*

                                                                                                                                                                                    Questioned Costs (FY
                                Recoveries (FY 11):             $4,766.00             Questioned Costs (FY 11):                        Recoveries (FY 12):
                                                                                                                                                                                                    12):


                                                                                                                                  Forfeitures/Seizures (FY                         Unsupported Costs (FY
                       Forfeitures/Seizures (FY 11):                             Unsupported Costs (FY 11):
                                                                                                                                                      12):                                          12):


                                                                                                                                                                                   Recommendations for
                                                                            Recommendations for Better Use                          Estimated Savings (FY
                         Estimated Savings (FY 11):                                                                                                                                  Better Use of Funds
                                                                                         of Funds (FY 11):                                           12):
                                                                                                                                                                                                 (FY 12):


                                                                   Fiscal Year 2013                                                                              Cumulative Since 2/17/2009
                                                                                                                                                                                   Monetary Results - Audits, Inspections,
                             Monetary Results -Investigations                Monetary Results - Audits, Inspections, Reviews*           Monetary Results -Investigations
                                                                                                                                                                                                Reviews*

                                                                                                                                                                                        Questioned Costs
                                Recoveries (FY 13):                                   Questioned Costs (FY 13):                   Recoveries (cumulative):     $4,766.00                                        $0.00
                                                                                                                                                                                           (cumulative):


                                                                                                                                      Forfeitures/Seizures                            Unsupported Costs
                       Forfeitures/Seizures (FY 13):                             Unsupported Costs (FY 13):                                                  $750,000.00                                        $0.00
                                                                                                                                             (cumulative):                                 (cumulative):


                                                                                                                                                                                   Recommendations for
                                                                            Recommendations for Better Use                              Estimated Savings
                         Estimated Savings (FY 13):                                                                                                              $0.00               Better Use of Funds        $0.00
                                                                                         of Funds (FY 13):                                   (cumulative):
                                                                                                                                                                                           (cumulative):




       * These data include Federal Audits, Inspections, and Reviews only                                                                                                     Monthly Activity Report October Page 3
                                                                                                               OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: 0
    Month Ending Date: 10/31/2012

                                                 FTE Working on Recovery
                                                                                                                                                                                 Testimonies:
      Fiscal Year              2009              2010              2011                       2012               2013                 Cumulative
       Newly Hired FTE
                               0.77              15.40                25.23                18.94                  1.35                    61.69                          Provided (monthly):        0
         (cumulative):

FTE Funded by Recovery
                               1.54              22.19                56.85                30.05                  4.88                   115.51                        Provided (cumulative):       6
 Act Funds (cumulative):

     FTE Not Funded by
    Recovery Act Funds        15.20              40.52                 4.43                15.97                  0.00                    76.12
          (cumulative):


                                                                                                                                                                     Audits / Inspections / Evaluations /
              Complaints                                 Whistleblower Reprisal Allegations                                       Investigations                                                                  Training / Outreach
                                                                                                                                                                                   Reviews
             Monthly Data                                          Monthly Data                                                   Monthly Data                                  Monthly Data                         Monthly Data

                                                                                                                                                                                                                  Training Sessions
              Received:         5                                        Received:             0                                    Opened (this month):        0      Initiated (this month):      0                                    0
                                                                                                                                                                                                                         Provided:

                                                                                                                                  Active (as of the end of           In Process (as of the end
                                                                         Accepted:             0                                                               64                                  12          Individuals Trained:      0
                                                                                                                                              the month):                      of the month):
                                                                                                                                                                             Completed Final
                                                                                                                                                                                                                 Hours of Training
                                                                                                                                   Closed without Action:       0             Published Work        1                                    0
                                                                                                                                                                                                                        Provided:
                                                                                                                                                                                     Products:
                                                                                                                                                                              Priority Interim
                                                                                                                                                                                                                Outreach Sessions
                                                                                                                                   Prosecution Declined:        0             Published Work        0                                    0
                                                                                                                                                                                                                      Conducted:
                                                                                                                                                                                    Products:

                                                                                                                                 Referred for Alternative                  Unpublished Work
                                                                                                                                                                0                                   0
                                                                                                                                              Resolution:                         Products*:

                                                                                                                                Convictions, Settlements,
                                                                                                                                                                1               QCRs Issued:        0
                                                                                                                                       Pleas, Judgments:


   Cumulative Data Since 2/17/2009                       Cumulative Data Since 2/17/2009                                 Cumulative Data Since 2/17/2009             Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                                                             Completed Final
                                                                                                                                                                                                                  Training Sessions
              Received:        459                                       Received:            10                                   Closed without Action:      76            Published Work        20                                   313
                                                                                                                                                                                                                         Provided:
                                                                                                                                                                                   Products:
                                                                                                                                                                              Priority Interim
                                                                         Accepted:            10                                   Prosecution Declined:        18            Published Work        1          Individuals Trained:     21644
                                                                                                                                                                                    Products:

                                                                                                                                 Referred for Alternative                  Unpublished Work                      Hours of Training
                                                                                                                                                                9                                   0                                   22052
                                                                                                                                              Resolution:                         Products*:                            Provided:

                                                                                                                                Convictions, Settlements,                                                       Outreach Sessions
                                                                                                                                                                3               QCRs Issued:        0                                   165
                                                                                                                                       Pleas, Judgments:                                                              Conducted:


                                                                                                                                       Cumulative Total:       106         Cumulative Total:       21




              *These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                                       Monthly Activity Report October Page 4
                                              OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: 0
  Month Ending Date: 10/31/2012

       No.                    OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1
        2
        3
        4
        5
        6
        7
        8
        9
       10

       No.                          OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1
        2
        3
        4
        5
        6
        7
        8
        9
       10




                                                                                                     Monthly Activity Report October Page 5
                                                         OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: 0
   Month Ending 10/31/2012

                                                                     TRAINING ACTIVITIES
                                                                                                                                            Hours of
                                                                                                                Length of                   Training
                                               Target                            Training Location   Date of                  Number of                      Cost of
     No.             Type of Training                        Title of Training                                   Training                  Provided
                                              Audience                              (City, State)    Training                Participants                    Training
                                                                                                                 (hours)                    (length x
                                                                                                                                          participants)
       1                                                                                                                                              0
      2                                                                                                                                               0
      3                                                                                                                                               0
      4                                                                                                                                               0
      5                                                                                                                                               0
      6                                                                                                                                               0
      7                                                                                                                                               0
      8                                                                                                                                               0
      9                                                                                                                                               0
      10                                                                                                                                              0
      11                                                                                                                                              0
      12                                                                                                                                              0
      13                                                                                                                                              0
      14                                                                                                                                              0
      15                                                                                                                                              0
                                                                                                                 TOTAL                  0             0

                                           OUTREACH ACTIVITIES
                                              Number of
                                            Organizations                           Outreach
                   Organization to which                    Description of                            Date of
     No.                                    Represented at                        Location (City,
                    Outreach Provided                          Outreach                              Outreach
                                              Outreach                                State)
                                               Session
      1
      2
      3
      4
      5
      6
      7
      8
      9
      10


                                                                                                                            Monthly Activity Report October Page 6
